   • uv /uu/u*            ±.u..   J.OJ..L   rAA
                                              ,   ' *.. -f-   'A4
                                                                ..±   OO, $I)002
                                                                           I       U444              flmI                I.j102



    (o-.vu)
EP<.1


United States Government                                                                         Department of Energy


memorandum
              DATE:     January 30,          2004
      REP.YTO:          IG-35 (A03DN039)                                                     Audit Report No.: OAS-L-04-10

       SUBJECT:         Audit of the Safeguards and Security Program at the Rocky Flats Environmental Technology Site

                 To:    Frazer Lockhart, Manager, Rocky Flats Field Office



                        INTRODUCTION AND OBJECTIVE

                         Because of the terrorist attacks against the United States on September 11, 2001, the
                         Department of Energy (Department) instituted additional security requirements beyond those
                         already in place for normal security operations. These "Security Conditions" requirements
                         were established by Department Notice 473.8 (Notice). The requirements are based on
                         specific threat levels ranging from 5 (lowest threat level) to 1 (highest threat level). The
                         Security Condition level is applicable to all Departmental sites and may change over time to
                         correspond to the levels established by the Department of Homeland Security. Nonnally, the
                         Department's sites are under Security Condition 3, which requires implementation of 29
                         security measures at each site.

                         As of October 1, 2003, the Rocky Flats Environmental Technology Site (Rocky Flats) had 49
                         personnel assigned to meet Security Conditions requirements and 46 personnel assigned to
                         normal security operations. Due to a lack of trained Security Police Officers (SPO), Security
                         Conditions requirements were initially met through overtime efforts of SPO assigned to
                         normal security operations. When the Protected Area at Rocky Flats was closed in August
                         2003, many of the normal security operations SPO were transferred to Security Conditions
                         operations. Therefore, the size of the Security Conditions staff has actually increased. Due
                         to these security workforce changes, we initiated this audit to determine whether the Rocky
                         Flats Safeguards and Security Program is consistent with the site's security needs.

                         CONCLUSIONS AND OBSERVATIONS

                         While the staffing for normal security operations appeared to be justified, Rocky Flats'
                         Security Conditions staffing exceeded the level necessary to meet the site's Security
                         Conditions requirements. Based on a comparison of Security Condition 3 requirements to
                         established security measures, we determined that Rocky Flats could meet those requirements
                         with a staff of 23--21 SPO, 1 supervisor, and 1 support person--rather than 49.

                       - We found that many of the security posts established to meet Security Conditions
                         requirements at Rocky Flats were unnecessary. Department guidance from December 2001
VU./ V,/v    1ud   j.L   .. L   rZLA   %J   £   ± JooV0   UJAJ                           n1                  Lgj
                                                                                                             Q U03




            stressed that Department security managers at all sites should take a critical look at all
            security measures to ensure that they are absolutely necessary, consistent with Security
            Condition 3 requirements, and not the products of tradition and/or convenience. However, at
            Rocky Flats 22 SPO were assigned to carry out measures only required under Security
            Condition 2. If Rocky Flats were to be at Security Condition 2 for an extended period, those
            requirements could be met through SPO overtime rather than additional hiring. Also, we
            found unnecessary duplication. For example, eight Security Conditions SPO conducted the
            same mobile unit patrols as those conducted by normal security operations. The site's
            integrating contractor Kaiser-Hill Co., L,C (Kaiser-Hill) conceded this was not necessary
            under Security Condition 3. In another example, three Security Conditions SPO were
            assigned to prevent nighttime entry through gates that are closed and alarmed at night.
            Therefore, normal security operations mobile patrol units could monitor the gates at night.

            In March 2002, the Rocky Flats Field Office's (RFFO) Safeguards and Security Division
            conducted a technical review of the size of the Security Conditions workforce at Rocky Flats.
            RFFO worked with the site's security subcontractor at the time, Wackenhut Security Services
            Inc. (Wackenhut), and concluded that only 25 SPO were needed to meet the Security
            Conditions requirements. However, RFFO did not follow through to ensure that the SPO
            staff was reduced. Moreover, RFFO did not ensure that Kaiser-Hill performed required
            periodic threat analyses.

            Recently, Kaiser-Hill decided to reduce the size of the Security Conditions staff to 31 in
            March 2004 and to 14 in February 2005. While we agree a reduction is proper, we question
            the decision to make a gradual reduction instead of a more immediate one. Kaiser-Hill's
            rationale was that buildings will be demolished at different intervals and over time, fewer
            buildings will need protection. However, the requirements of the Notice and the types of
            threats being protected against are to be the basis for establishing Security Conditions
            staffing, not the number of buildings being protected. Reducing the current overstaffing
            could save the Department scarce funds that could be applied to further cleanup and closure
            at Rocky Flats. For example, if Rocky Flats had reduced Security Conditions staff to 23 on
            October 1, 2003, it could have saved up to $2.3 million until the time it planned to reduce
            stall in February 2005.

            SCOPE AND METHODOLOGY

            The audit was performed at Rocky Flats near Golden, Colorado, from July through
            November 2003. The audit examined the Safeguards and Security Program staffing levels for
            normal security operations and Security Conditions operations for Fiscal Years (FYs) 2001
            through 2003. The audit also analyzed the site's projected security staffing and costs for FYs
            2004 and 2005.

            'To accomplish our objective we reviewed Department and Kaiser-Hill guidance on
            safeguards and security programs, the Kaiser-Hill contract and the Wackenhut safeguards and
            security subcontract; interviewed RFFO, Kaiser-Hill and Wackenhut security personnel; and,




                                                          2
reviewed and evaluated documents related to Kaiser-Hill's and Wackenhut's Safeguards and
Security Program staffing requirements.

The audit was performed in accordance with generally accepted Government auditing
standards for performance audits and included tests of internal controls and compliance with
laws and regulations to the extent necessary to satisfy the audit objective. In addition, we
reviewed the Department's perfonnance measures related to safeguards and security programs
in accordance with the Government Performance and Results Act of.1993. Because our
review was limited, it would not necessarily have disclosed all internal control deficiencies
that may have existed at the time of our audit. We did not rely on computer-processed data to
accomplish our audit objective.

We discussed the audit results with RFFO personnel on September 18, 2003. Since no
formal recommendations are being made in this letter report, a formal response is not
required. However, we suggest that you revisit your March 2002 technical review to.
determine if further reductions in Security Conditions staff would bring additional savings
without compromising security. Further, this would provide the Department reasonable
assurance that Kaiser-Hill's planned February 2005 staff reduction has a sound basis.

We appreciated the cooperation of your staff throughout the audit.




                                               Phillip.   Holbrook, Director
                                               Environmental Audits Division
                                               Office of Inspector General


cc: Assistant Secretary for Environmental Management
    Team Leader, Audit Liaison Team, ME-1.1
    Audit Liaison, Rocky Flats Field Office




                                           3
 u&I   v.If   V     . .    UL L..LVU    .
                                       VZ"     3'&JJ46I.   0001           UIV                                            ZjUUt




0OE F 1325,8
(08,93)
United States Government                                                                          Department of Energy


memorandum
         DATE:            February 2,        2004

   REPLY TO
    ATTN OF:              10-36 (A03DN039)

    SUBJECT:              Letter Report on the Rocky Flats Safeguards and Security Program

              TO:         Team Leader, Audit Liaison Team (ME-1.1)

                          Attached is the subject report. No recommendations are being made and no Management
                          Decision is required for this report. Management was briefed on our observation that,
                          consistent with the finding ofa March 2002 Rocky Flats Field Office technical review,
                          Rocky Flats' Security Conditions staffing exceeded the level necessary to meet the site's
                          Security Conditions requirements. Therefore, because the technical review's finding
                          was never implemented, we suggested that Rocky Flats Field Office revisit the
                          technical review to determine if further reductions in Security Conditions staffing
                          would bring additional savings without compromising security.

                          We appreciated your cooperation during the audit.-



                                                                  Philliip. Holbrook, Director
                                                                  Environmental Audits Division
                                                                  Ol'lce of Inspector General

                          Attachment

                          cc: Manager, Rocky Flats Field Office
 02/03/04            TUE 16:17 FAX 423 241 3897                OIG                                H--*
                                                                                                  HQ                    [005




DOE F 1325,8
(08-93)                                                                                  Department of Enegy
United States Government                                                                 Department of Energy


 memorandum
          DATE:       January 30,.2004

    REPLY TO
     ATTN OF:         IG-36 (AO2DN006)

      SUBJECT:         Final Report Package for Letter Report on "Safeguards and Security Program at Rocky
                       Flats"
               TO:     Director, Planning and Administration

                       Attached is the required final report package on the subject audit. The pertinent details are:

                       1. Staff days:          Programmed        N/A          Actual     N/A

                       2. Elapsed days:        Programmed        207.         Actual     _Q2_

                       3. Names of OIG audit staff:

                         Assistant Division Director: Fred Pieper
                         Team Leader: Mark Mickelsen
                         Auditor-in-Charge: Richard Terry
                         Audit Staff: Christine Nehls

                      4. Coordination with Investigations and Inspections: Inspections and Investigations
                         were notified on 1/16/04 of planned issuance of letter report. No actual or potential
                         compromise of an investigation or inspection was noted. This report will not impact
                         any ongoing investigations or inspections.

                       5. Matters to be brought to attention of the IG or AIGAS: None.



                                                        Philli.   Holbrook, Director
                                                        Environmental Audits Division
                                                        Office of Inspector General

                        Attachments:
                        1.   Final Report (3)
                        2.   Monetary Impact Report
                        3.   Audit Project Summary Report
                        4.   Transmittal Memorandum
02/03/04    TUE 16:18 FAX 423 241 3897                         OIG                                --4     HQ                         ]007




                                MONETARY IMPACT OF REPORT NO.: OAS-L-04-10


      1. Title of Audit:           The Safe.guards and Security Procram at the Rocky Flats Environmental
                                   Technology Site

      2. Division:                 Environmental Audits Division/Denver Audit Group

      3. Project No.:              A03DN039

      4. Type of Audit:

             Financial:                                               Performance:          X
                Financial Statement                                     Economy   and Efficiency                 X
               Financial Related                                        Program Results
             Other (specify type):

       5.
                                                                                                                MGT.     POTrNTIAL
                 FINDIN.                COST AVOIDANCE                   QUESTIONED COSTS                  POSITION       FlUDOET
                                                                                                                          IMPACT
                                                                                                                            (
       (AT               (H)             (C)      (0)          (E )         (')     (G)          (H)             (1)            1)
                        T'ide            One    Recurring   Qucstionc     Unsup-   Unrc-       ToUal       C=Conculr       Y-Yeu
                                         Time    Amount        d.         ported   solved   (E)-t(FP(G)    N=Noncon        N-Nu
                                                Per Yeaf                                                       U=lndic

             Security Cnnditions        $2.3M                                               0                    N/A        Nn
             Stlling"


       TOTAI.S-AI.L. PINDINGS           $2.3M                                               0




       6. Remarks: The audit found that the Rocky Flats Security Conditions staffing exceeded the
                   level necessary to meet the site's Security Conditions requirements. We concluded
                   that as of October 1, 2003, Rocky Flats could meet the Security Conditions
                   requirements with 23 security personnel rather than the 49 currently employed.
                   Therefore, by reducing the number of security personnel, Rocky Flats could. avoid
                   additional security costs. For example, our analysis showed that if Rocky Flats had
                   reduced Security Conditions staffing to 23 on October 1, 2003, the Department
                   could have saved up to $2.3 million in security costs by February 1, 2005-the date
                           Kaiser-Hill plans to further reduce staff to 14. Therefore, we suggested that Rocky
                           Flats consider whether additional savings could be obtained from further staff
                           reductions without compromising site security.

       7. Contractor:  N/A_                                  10. Approvals:
       8. Contract No.: N/A                                  Division Director/Date:   a')                /_
       9. Task Order No.: N/A                                OAS Technical Advisor Date
                                                                                     &
                                                    -----                                                 -^4-
DOE F 1325.8
  (8-89)
EFG (07-90)


United States Government                                                                      Department of Energy

memorandum
           DATE:     March 18, 2004
     REPLY TO:       IG-30
      SUBJECT:       Monetary Impact of Letter Report on the Rocky Flats Safeguards and Security Program

               TO:   Team Leader, Audit Liaison Team (ME-1.1)



                     Because our letter report, Audit of the Safeguards and Security Program at the Rocky
                     Flats Environmental Technology Site (OAS-L-04-10), did not include
                     recommendations and was not intended to be tracked in the Department's Audit
                     Resolution and Tracking System, please disregard the Monetary Impact Statement that
                     was provided to your office on February 2, 2004.

                     Thank you for your cooperation in this matter. If you have any questions, please
                     contact Jill Schulman at 202-586-1946.




                                                                 Rickey    . Hass
                                                                 Acting Assistant Inspector General
                                                                  for Audit Services
                                                                 Office of Inspector General
    02/03/04       TUE 16:20 FAX 423 241 3897          OIG                                                                   ---     HQ                          ]015
                                                       ,-----
                                        -------------------------------------
                                          Audit Project Office Summary (APS)
                                                                                                                                                        Page 1

eport run on:                     February 3, 2004 12;02 PM


 Audit#: A03DN039                OfC:    DNA         Title'             SAFEGUARDS & SECURITY PROGRAM AT RFETS
                                                              _   ___         M-'feone'e    . ..... ___....I _
                                                                                            *__
                                                              .         ****' Mildeoeb.'.::*.

                                                     Planned     End of Survey       Revised                                          Actual
                                                             I------------------7
                                                    -----------------------------------  ---------                                   -----------

                                                                                                              07-JUL-03            07-JUL-03
  Entrance Conference:.....                     23-JUN-03                                                     07-JUL03             07-JUL-03
                                                                                                              02-OCT-03            02-OCT-03
  Survey ..................
  Draft Report:............
                                                                                02-OCT-03                     30-JAN-04            30-JAN-04       (R    )
  Completed       (With Report):-               16-JAN-04
   ------------        Elapsed Days:                       207                                87                    207             207
                                                                                                                    Elap.    Less Susp:

  Date Suspended:                                                         Date Terminated:
  Date Reactivated;                                                       Date Cancelled:
                                                                         ) Report Number:                     OAS-L-04-10
  DaysSuspended(Cur/Tot):
   Rt Title                                                                Report Type:                       LTR   LETTER REPORT
                                                                            TECHNOLOGY SITE
  AUDIT OF SAFEGUARDS AND SECURITY PROGRAM AT THE ROCKY FLATS ENVIRONMENTAL

                                        . ...   .      .................

                                                     **** Audit                          *adersonel
                                                                                                 rCodes'. ***

   Class:         PER     PERFORMANCE
   Program:       DP     Not Found
  MgtChall;       005    NATIONAL SECURITY                    (F                                      AD:     496    PIEPER
   Site:          MSA     MULTI-SITE AUDIT                                                           AIC:     447    TERRY
   SecMiss;       ENV     ENVIRONMENTAL QUALIT                                          Team Ldr:             342    MICKELSEN
   Preslnit:             Not Found                                                      Tech Adv:             421    SCHULMAN
                                                      ..           .      ...             ......
                                                           ****         Task      inf    a*tloh              ****             _


          Task No:
          Task Order Dt:                                                      CO Tech. Rep:
          Orig Auth IIrs;                                                     Orig Auth Costs:
           Current Auth:                                                      Current Auth Cost:
           Tot Actl      IPR 1r:                                              Tot Actl        Cost:


                                                                  ****        Timie.. Charges          ****

                       Emp/Cont Name                    Numdays. -
                                                                                     i
                                                                                 :L:' a
                                                                                          a
                                                                                               'i:     'it

                        HALPIN,    D                                    3.1             13-DEC-03
                        MICKELSEN, M                               16.6                 24-JAN-04
                        NEHLS,    C                                52.4                 29-NOV-03
                        TERRY, R                                  101.8                 24-JAN-04

                        Total              _____                  173.9
    02/03/04     TUE 16:20 FAX 423 241 3897          OIG                                                 -.-. HQ                [016
                                                       ''------
                                      -----------------------------------

                                         Audit      Project          Office          Summary     (APS)
                                                                                                                            Page 2

eport run on:                    February 3,        2004 12:02 PM

            ["   =                               +****    Keywords       **.     :
                                ....                                                                         . .. ......

                 EXCESS STAFFING
                 KAISER-HILL
                 ROCKY FLATS
                 ROCKY FLATS FIELD OFFICE
                 SAFEGUARDS AND SECURITY
                 SECURITY CONDITIONS
                     SECURITY POLICE OFFICERS
                     SECURITY STAFFING
                     WACKENHUT

                         .....                                                           .....
                                         ****    Location Informatio...**** ,.
    ode     Description                                        ______

   RFA      ROCKY FLATS OFFICE
    RFA     KAISER-HILL COMPANY LLC

                                                ****Finding Info~matt'ionK****            Bud    MXg.Dept.                     Dept
                     Find#.. *:::Title      .        ..       Ty         outi:.:yr               Po  Pos           Amount      Date


    1     'SECURITY CONDITIONS STAFFING                       OTS 23O0000
     02/03/04    TUE 16:20 FAX 423 241 3897                        01--
                                                                   OIG                                          HQ                      0017
                                      -----------------------------------------

                                      Audit Project Office                           Summary   (APS)
                                                                                                                               Page 3

eport run on:                    February 3, 2004 12:02 PM


                                                          Audit Histor'^:             :;


  udit   No:    A03DN039                            History Date:                30-JAN-04

 History Text:
 PB/ENTERED COMPLETED WITH REPORT DATE




                                                                                                       _.____        ..   __      ___     1
                                                    .-   ___    "   ________._____             _.___
                  ___       __
                   ___.__.___
02/03/04     TUE 16:18 FAX 423 241 3897              OIG                           ---*   HQ             [008




                               AUDIT DATABASE INFORMATION SHEET

      1. Project No.: A03DN039

      2. Title of Audit: The Safeguards and Security Program at the Rocky Flats Environmental
         Technology Site

      3. RcportNo./Date        OAS-L-04-10; January 30, 2004

      4. Management Challenge Area: National Security

      5.     Presidential Mgmt Initiative: None

       6. Secretary Priority/Initiative: Environmental Programs

       7. Program Code: DP-3

       8. Location/Sites:    Rocky Flats Environmental Technology Site, Golden, CO
                             Rocky Flats Field Office, Golden, CO

       9. Finding Summary:

             Rocky Flats Security Conditions staffing exceeded the level necessary to meet the site's
             Security Conditions requirements. Rocky Flats could meet these requirements with 23
             personnel rather than the 49 currently employed. A comparison of Rocky Flats security
             measures with Security Conditions requirements disclosed that some established security
             posts were unnecessary. This situation resulted from internal weaknesses by both the
             Department and the site security, contractors Kaiser-Hill and Wackenhut. For example,
             the Rocky Flats Field Office did not act upon the results of a March 2002 technical
             review that concluded fewer staff were needed. We also found that by reducing the
             number of Security personnel, Rocky could avoid additional security costs. For example,
             our analysis showed that if Rocky Flats had reduced Security Conditions staffing to 23 on
             October 1, 2003, the Department could save up to $2.3 million in security costs by
              February 1, 2005-the date Kaiser-Hill plans to reduce staff to 14. Therefore, we
              suggested that Rocky Flats Field Office revisit the March 2002 technical review to
              determine if further reductions to Security Conditions staff would bring additional
              savings without compromising site security.

           10. Keywords: Rocky Flats
                         Rocky Flats Field Office
                         Kaiser-Hill
                         Wackenhut
                         Safeguards and Security
                         Security Conditions
                         Security staffing
                         Security Police Officers
                         Excess staffing
 02/03/04       TUE 16:18 FAX 423 241 3897                            0IG                           -   HQ
                                                                                                        H-*    I]009



                                                                                             Technology Site
                   Audit of Safeguards and Security Program at the Rocky Flats Environmental
                                                          A03DN039____



Purpose:
                                                                             sure to have your
If your audit work or report deals with any of the following information, be           Restricted
information reviewed by a classifier to ensure you are not inadvertently discussing
                                                                                     in the
Data or Formerly Restricted Data or any other level of classification. Information
aggregate can be classified even if taken from unclassified sources.

AIDS FOR REVIEW OF INFORMATION THAT MAY BE CLASSIFIED                                     YES   NO
OR CONTROLLED
Source or formula for Chemical/Biological Agents that has not been widely                       X
reported in open scientific literature.

Existence ofa specific Chemical/Biological agent that is considered a threat to                 X
national security at a specified location wihin a government facility.

Statements that a specific Chemical/Biological agenrt considered a threat to national           X
security cannot be detected by existing technology.

Information concerning significant technical advances and break-throughs in                     X
Chemical/Biological agent detection, dissemination, or response technologies that
could significantly assist an adversary.

Results or interpretation of research results fromr computer modeling that reveal               X
specific operational deficiencies or vulnerabilities ofla facility, infrastructure, or
response plan which could be exploited or otherwise could materially aid an
adversary in planning or conducting a Chemical/Biological attack.

Source term parameters (e.g. location, quantity, release rate, dispersal mechanisms,            X
physical state, or particulate size distribution) of a Chemical/Biological agent and
the airborne or surface concentrations resulting from dispersion modeling..

 Specific dispersion mechanisms for specific chemical/Biological agents, including              X
 grinding techniques and pressurized systems that would be effective for dispersion
 over a large area...._

 Details of operational scenarios either for intelligence, civilian, or military                X
 organizations that would reveal current vulnerabilities or lessen the effectiveness of
 the scenarios.

 Intormation about deployment ofa specific detector or response system that could               X
 be used to defeat or significantly reduce the effectiveness of that system or
 otherwise materially aid an adversary in plaming or conducting an attack.
02/03/04    TUE 16:19 FAX 423 241 3897                          OIG                              4-*-   HQ        ·   010



                                                                                        Technology Site
              Audit of Safeguards and Security Program at the Rocky Flats Environmental
                                                      A03DN039



           AIDS FOR REVIEW OF INFORMATION THAT MAY BE CLASSIFIED                                 YES         NO
           OR CONTROLLED
                                                                                                             X
           Descriptions of specific vulnerabilities of decontamination equipment or procedures
           that could be exploited to prevent or significantly reduce their ability to perform
           required functions or otherwise materially aid an adversary in planning or
           conducting a Chemical/Biological attack.

           Descriptions of specific conditions (e.g., carrier Ior an agent or environmental                  X
           condition) that could be exploited to reduced the effectiveness of standard
           decontaminant.s or dccontamination procedures such that risks to unprotected
           personnel cannot be reduced to acceptable levels, or otherwise would aid an
           advsary in lannin a Chemical/Biological attack._

           Nuclear weapon dcsign, fabrication, and utilization.                                              X

           Radiological warfare.                                                                             X

           Radiological dispersal devices.                                                                   X

           Inertial confinement fusion,                                                                      X

            Military nuclear reactors (not necessary for civilian).                                          X




                                                                      2
02/03/04    TUE 16:19 FAX 423 241 3897                          OIG                                  -*4   HQ                  ~o01



                                                                                                   Site
              Audit of Safeguards and Security Program at the Rocky Flats Environmental Technology
                                                             A03DN039


                                  POTENTIALLY SENSITIVE INFORMATION
                                                                                                                 is derailed
           The rollowing table is a listing of information considered potentially sensitive, If the information
                                                                                                                          or
           to such an extent that it would cause or potentially could cause damage to U.S. national security, citizens,
                                          in our public reports. Therefore, when  you prepare  your  reports be sure to
           property, it. cannot be placed
           check for this type of information.
02/03/04   TUE 16:19 FAX 423 241 3897                  OIG                             -    HE
                                                                                            n Q              012



                                                                                       Technology Site
             Audit of Safeguards and Security Program at the Rocky Flats Environmental
                                                    A03DN039



           CATEGORIES/TYPES OF INFORMATION                                                 YES     NO

           Facilities

              > Detailed description and location of facilities to include                           X
                maps, written directions, drawings, blue prints,
                photographs and such.

              > Detailed descriptionsand location of storage facilities for                              X
                nuclearor other hazardous materials.

              > Detailed descriptions and location of personnel or facility                              X
                  support systems (e.g. water supply, electrical supply
                  systems, communications systems, emergency response
                  personnel/equipment).

              > Detailed descriptions and locations of computer systems                                  X
                used to process, store, and transmit sensitive information.

               > Environmental Impact Statements that provide the                                        X
                  consequences for what is being studied.

               > Any detailed information pertaining to other sites that has                             X
                 not been reviewed/approved by the other site.



           Materials

               > Form and quantity of hazardous materials, (chemical,                                    X
                   nuclear, biological).

               > Vulnerabilities of materialsto unauthorized access or                                   X
                   destruction.

               > Consequences of release of hazardous materials.                                         X

               > Detailed transportation related information (routes, maps,                              X
                   shipping means, containers).




            Security/Safety


                                                             2
02/03/04   TUE 16:19 FAX 423 241 3897                 OIG                             4-,   HQ              [j013



                                                                        Environmental Technology Site
            Audit of Safeguards and Security Program at the Rocky Flats
                                                   A03DN039__



             > Detailed plans, procedures, communications, reaction                                 X
               times, or capabilities that would allow someone to
                determine vulnerabilities of the site.

             > Specific assessments, exercise results, evaluations for a                                X
                 particular site.

             > Specific personnel data identifying security/safety                          X
               personnel. The report details the number of security
               personnel at Rocky Flats by total numbers, but does not
                 identify specific personnel.

              > Specific equipment and its potential uses.                                              X




                                             -..            ^-,.3
02/03/04    TUE 16:19 FAX 423 241 3897                 OIG                             --*   HQ                  ~014



                                                                                       Technology Site
             Audit of Safeguards and Security Program at the Rocky Flats Environmental
                                                    A03DN039




           SAssessments
              > Site-specific vulnerability assessments.                                             X

              > Site-specific safety assessments/analysis.                                               X

              > Site specific risk analyses.                                                             x

              > Specific hazardous assessments (Dispersion models and                                    X
                  analyses, accident analyses, or site hazards).




            Personnel

               > Specific organization charts or phone lists identifying                                 X
                  senior management/key personnel.

               > Specific personaldata to include travel plans, meetings
                 and such.

               > Specific training materials that include sensitive                                      X
                   information.




            Programs

               > Detailed information identifying sensitive programs,                                    X
                 special projects, SAPs, WFO.

               > Reports detailing specific activities and/or results from                               X
                   programs and projects.

               > Information pertaining to specific programs at other                                        X
                 facilities/sites that has not been cleared with the other
                 sites for publication on a publicly accessible web site.




                                                             4
